<html>
<title> - HEARING ON THE NOMINATION OF MICHAEL CONNOR TO BE ASSISTANT SECRETARY OF THE ARMY FOR CIVIL WORKS AT THE DEPARTMENT OF DEFENSE</title>
<body><pre>[Senate Hearing 117-67]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 117-67
 
 HEARING ON THE NOMINATION OF MICHAEL CONNOR TO BE ASSISTANT SECRETARY 
        OF THE ARMY FOR CIVIL WORKS AT THE DEPARTMENT OF DEFENSE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2021

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                           ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
45-499 PDF            WASHINGTON : 2021 

         
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 14, 2021
                           OPENING STATEMENT

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Padilla, Hon. Alex, U.S. Senator from the State of California, 
  prepared statement.............................................    47

                                WITNESS

Connor, Michael, nominated to be Assistant Secretary of the Army 
  for Civil Works, Department of Defense.........................     2
    Prepared statement...........................................     5
    Responses to additional questions from:
        Senator Kelly............................................     8
        Senator Capito...........................................    11
        Senator Cramer...........................................    18
        Senator Wicker...........................................    20
        Senator Sullivan.........................................    22

                          ADDITIONAL MATERIAL

Letter to:
    Senator Carper from former Senator Jeff Bingaman, July 9, 
      2021.......................................................    56
    Senator Capito from former Senator Jeff Bingaman, July 9, 
      2021.......................................................    57
    Senators Carper and Capito from the Association of California 
      Water Agencies, May 12, 2021...............................    58
    Senators Carper and Capito from the National Parks 
      Conservation Association, July 13, 2021....................    59
    Senators Carper and Capito from Sally Jewell, former U.S. 
      Secretary of the Interior, July 11, 2021...................    61
    Senator Jack Reed et al. from the National Wildlife 
      Federation, July 13, 2021..................................    63
    President Joe Biden from the National Congress of American 
      Indians, February 19, 2021.................................    65


 HEARING ON THE NOMINATION OF MICHAEL CONNOR TO BE ASSISTANT SECRETARY 
        OF THE ARMY FOR CIVIL WORKS AT THE DEPARTMENT OF DEFENSE

                              ----------                              


                        WEDNESDAY, JULY 14, 2021

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 9:50 a.m., in 
room 406, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(Chairman of the Committee) presiding.
    Present: Senators Carper, Capito, Cardin, Whitehouse, 
Markey, Duckworth, Stabenow, Padilla, Inhofe, Cramer, Boozman, 
Sullivan, and Ernst.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. I just want to thank everyone for being 
here and allowing us to get off to a good start today.
    I would just say to our guests, if some of our colleagues 
get up and leave, it is not because they are not interested in 
what you have to say, nor the importance of your job for which 
you have been nominated. But we all serve on three, four, five 
committees, and they are trying to cover a lot of bases all at 
once. We will let them.
    Now, unless there is an objection, I am going to turn the 
page and move on to our hearing.
    I would like to invite our witness, Michael Connor, to the 
table, please.
    Mr. Connor has been joined by his wife of how many years? 
This is your first question.
    Mr. Connor. Thirty-two and counting, Mr. Chairman.
    Senator Carper. Thirty-five right here, and my wife says it 
is the happiest 5 years of her life.
    We thank your wife for joining you today. Thank you for 
sharing your husband with us, and I want to especially thank 
your daughter. You may want to introduce her as well.
    As I mentioned earlier, President Biden has nominated Mr. 
Connor to be the Assistant Secretary of the Army for Civil 
Works. If confirmed to this office, Mr. Connor's duties will 
include overseeing the U.S. Army Corps of Engineers. Among its 
many areas of responsibility, the Corps is responsible for 
responding to and reducing the likelihood of flood damage and 
restoring our degraded ecosystems.
    The Corps' Civil Works Program includes the construction, 
operation, and maintenance of our Nation's ports and inland 
waterways, which are the gateway to both domestic and 
international commerce. It also includes shoreline and coastal 
protections for the areas of our country dramatically affected 
by large bodies of water.
    Mr. Connor comes to this nomination with years of public 
service experience, having served as staff to the Senate 
Committee on Energy and Natural Resources, our sister 
committee, and as Senior Leader at the Department of the 
Interior.
    Who was the Secretary? Was Ken Salazar the Secretary when 
you were there?
    Mr. Connor. Ken Salazar was the Secretary, then Sally 
Jewell.
    Senator Carper. Old colleague and friend.
    From 2009 to 2014, Mr. Connor led the Bureau of Reclamation 
as its commissioner, and from 2014 to 2017, he served as the 
Deputy Secretary of the Interior. Mr. Connor is now a partner 
at WilmerHale Law Firm.
    Mr. Connor, we welcome you, and we invite you to please 
proceed with your testimony.

    STATEMENT OF MICHAEL CONNOR, NOMINATED TO BE ASSISTANT 
  SECRETARY OF THE ARMY FOR CIVIL WORKS, DEPARTMENT OF DEFENSE

    Mr. Connor. Thank you.
    Chairman Carper, Ranking Member Capito, distinguished 
members of the Committee, I am honored to appear before you 
today as President Biden's nominee to be the Assistant 
Secretary of the Army for Civil Works. I am grateful and 
appreciative of your consideration of my nomination.
    Mr. Chairman, I think I missed my cue earlier, so I will 
take care of that now. Thank you for the opportunity to 
recognize my wife Shari and my daughter, Gabriela.
    Senator Carper. Gabriela, I love that name. That is such a 
beautiful name.
    Mr. Connor. They, along with my son Matthew, who couldn't 
be here today, have made sacrifices that have allowed me the 
opportunity to engage in public service for many years, so I 
continue to deeply appreciate their support.
    The Assistant Secretary of the Army for Civil Works is an 
important position under any circumstances, given the 
responsibilities of the Corps of Engineers for infrastructure, 
ecosystem health, maintaining waterways, managing flood risks, 
and protecting wetlands. These are incredibly important 
functions for communities across the Nation.
    Today, these responsibilities take on new significance amid 
the backdrop of a pandemic impacted economy. We must also build 
resiliency in the face of climate change, while also ensuring 
equity amongst the communities being served.
    I am humbled to be nominated to work with the military 
leadership of the Corps and the talented civilian work force to 
carry out these important responsibilities. I also believe I am 
well prepared to address the challenges ahead, given my 
extensive experience both inside and outside of Government.
    As a former Deputy Secretary of the Interior and 
Commissioner of the Bureau of Reclamation, I directed strategy 
and managed a large Federal waterway resources agency 
responsible for programs and facilities similar to those of the 
Corps. These positions also provided significant management 
experience.
    As the Chief Operating Officer at Interior, I was 
responsible for 70,000 employees and an annual budget in excess 
of $13 billion. At Reclamation, I managed over 5,000 employees 
with an annual budget in excess of $1 billion.
    My prior positions also provided extensive experience 
working directly with the Corps of Engineers. At Reclamation, 
we collaborated in developing climate resilience strategies, 
coordinating flood control and water management operations, 
protecting endangered species and engaging in river 
restoration, and advancing dam safety risk management efforts.
    As Deputy Secretary, I worked with the Corps in its role as 
a regulator, and even collaborated on an international issue 
involving some poorly maintained infrastructure that was 
impacting the United States' interests in the Middle East.
    As council to the Senate Energy and Natural Resources 
Committee, I didn't stay in my lane, and I worked on numerous 
initiatives regulated to the Corps.
    I believe this experience, coupled with my background as 
both an engineer and a lawyer, provide a unique set of 
qualifications to be an effective Assistant Secretary of the 
Army.
    If confirmed, my personal background will also inform my 
views, as I oversee the vast responsibilities associated with 
the Corps. I grew up in New Mexico, a State rich in natural 
resources, with the exception of water. I am proud of my Native 
American heritage and the fact that my grandfather was a leader 
within Taos Pueblo working to protect the Tribe's water rights 
and its cultural resources.
    My childhood home in Las Cruces, New Mexico, is located 
across the street from a major irrigation canal that was 
constructed with Federal assistance, and it serves a large 
agricultural area. I grew up witnessing the important role the 
Federal Government plays in supporting and protecting the 
economic foundation of many communities while also providing 
access to the recreational resources that enhance the quality 
of life for our citizens.
    If confirmed, I will be focused and committed to the work 
necessary to fulfill my responsibilities and challenges facing 
the Corps and its stakeholders, your constituents.
    Of course, the Corps cannot be successful on its own, and 
my years in public service have reinforced the importance of 
collaboration. I commit to this task with a sense of humility 
and a keen understanding of the need to work with State and 
local leaders, the public, affected stakeholders, and Members 
of Congress to most effectively carry out the Corps' mission.
    I am equally committed to increasing coordination within 
the Federal Government, a whole of government approach that is 
more effective and efficient in addressing the effects of a 
changing landscape across the country.
    Finally, with your support, I will be proud to join a 
department led by Secretary Austin, Deputy Secretary Hicks, and 
Secretary Wormuth, who have made clear their intent to lead 
with transparency, integrity, and the highest ethical standards 
in carrying out the Defense Department's and the Army's vital 
missions. I am equally committed to these principles.
    Thank you for the opportunity to address the Committee, and 
I look forward to your questions.
    [The prepared statement of Mr. Connor follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
           
    Senator Carper. Again, welcome.
    I want to begin the questioning of our witness today by 
noting that Senator Capito and I have agreed to 5 minute rounds 
of questions, with additional rounds at the discretion of the 
Chair, with her concurrence.
    To begin, this Committee has three, as you may know, has 
three standing yes or no questions that we ask of all nominees 
who appear before us. I will ask those questions of you now. If 
you screw these up, we will just call it an early morning. I 
don't think you will.
    First question: Do you agree that, if confirmed to appear 
before this Committee or designated members of this Committee 
and other appropriate committees of the Congress and provide 
information subject to appropriate and necessary security 
protections with respect to your responsibilities? Do you 
agree?
    Mr. Connor. Yes.
    Senator Carper. So far, so good. Second question: Do you 
agree to ensure that testimony briefings, documents, and 
electronic and other forms of communication with information 
are provided to this Committee and its staff and other 
appropriate committees in a timely manner? Do you agree?
    Mr. Connor. Yes, I do.
    Senator Carper. Thank you. Do you know of any matters which 
you may or may not have disclosed that might place you in a 
conflict of interest if you are confirmed? Do you?
    Mr. Connor. No.
    Senator Carper. Good. OK, my first questions would be 
dealing a little with your experience with the Department of 
Interior. Your experience with the Department of Interior, 
including the Bureau of Reclamation, was largely focused on 
issues that affect the western U.S., including energy 
conservation and climate change.
    The question is this: Please tell us about your experience 
with coastal programs, and what would be your approach in 
prioritizing water infrastructure projects to address coastal 
needs as well as the rural and inland needs of our country.
    Mr. Connor. Thank you, Mr. Chairman. I certainly have 
experience dealing with coastal issues as it related to 
Reclamations programs and water resources issues. That is 
probably one of the biggest differences, though, between 
Reclamations' mission and the Corps of Engineers' mission, is 
the amount of coastal work.
    So most of my experience in the coastal arena has to do 
with work I did as Deputy Secretary related to our facilities 
and national parks, other initiatives related to coastal 
issues, dealing with erosion, coastal surge issues, and my work 
as a member of the Restore Council in the aftermath of 
Deepwater Horizon.
    Looking at the number of projects and the funding that was 
available to do just that, restore areas of the coast which was 
protecting our coastal facilities, building up wetlands, 
addressing coastal surge issues, making the investments 
necessary to fortify our coast in face of the issues associated 
with climate change, long term resilience, as well as the 
restoration efforts out in the Gulf of Mexico that were 
necessary.
    I feel I have a general and fairly good understanding and 
some good history in dealing with those coastal issues, 
recognizing that the Corps' mission, in particular, is founded 
in great part on those ports and those waterways and now, 
coastal protection issues in the face of a changing climate and 
the resiliency needed as we protect beaches, as we look at 
erosion issues, as we try, and once again, deal with and adapt 
to the changes that are occurring in our environment.
    Senator Carper. I am told that you are a quick study, and 
we are counting on that to be the case, especially as you come 
up to speed on coastal issues, which a number of us, looking to 
my left, and even over here on my far left, with the Great 
Lakes, a lot of interest in both sides on these issues. Thank 
you.
    Second question. Recently, there has been a lot of 
discussion regarding the method used to calculate the benefit 
to cost ratio. We talked a little bit about this when we were 
together on the phone, but a lot of discussion regarding the 
method used to calculate the benefit to cost ratio and the 
omission of benefits that are hard to quantify.
    For example, a benefit to cost ratio does not account for 
savings associated with not having to provide emergency 
response when proposed project functions as intended. The 
benefit to cost ratio also fails to really capture long term 
environmental benefits and tertiary economic benefits.
    Here is my question: What other factors should be 
considered in identifying project benefits in order for 
initiatives to move forward, and how should the Corps better 
prioritize projects to reflect all of the benefits?
    Mr. Connor. Thank you, Senator. That is a question that 
folks have been wrestling with for quite a while, now, how to 
assess the full range of benefits associated with any projects. 
We understand the costs with most projects, not that we always 
estimate them accurately up front.
    But with respect to evaluating benefits, I think it is 
important to keep in front of us the economic returns that we 
expect, but there are, particularly in multifaceted projects, 
and all of our projects should be looking at multiple purposes 
these days, there are ecosystems benefits.
    There are communities of need, and the protection of those 
communities that, in valuing the land associated with the 
protections that are going to be in place with this specific 
project, it is not equitable to consider just the pure value 
ascribed through some appraisal process that doesn't recognize 
the need.
    I think all of these factors need to be assessed. We need 
to better understand, and really, there is huge economic value 
to ecosystem services that I don't think we have properly 
valued to date. Then there is the local, regional benefits 
associated with communities of need that need to be integrated 
into that benefit-cost formula.
    I see, based on the direction where this Administration is 
going, based on the direction Congress has currently gone in 
the last Water Resources Development Act, that there is 
direction for the Corps to better account for the value of 
those benefits. I am fully supportive of those efforts in 
working on that, if I am confirmed.
    Senator Carper. Thanks so much.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank you, Mr. Connor. Thank you for your willingness to 
serve. I certainly appreciate that.
    My first question was going to be very similar to what the 
Chairman asked in that your prior experience has been at the 
Bureau of Reclamation. There are certain areas, obviously, that 
the Corps of Navigation and Flight Risk Management, that are 
areas of Corps responsibility that you didn't really actually 
deal with over at Reclamation. I didn't know if you wanted to 
address that issue more deeply, how you are going to get up to 
speed on that. Obviously, you have already done a lot of 
research in that area.
    Mr. Connor. Sure, Senator, thank you. There was an overlap. 
Certainly, the Bureau of Reclamations' mission with respect to 
water supply, in particular, is fairly unique, although the 
Corps does have water supply responsibilities. I talked to 
Senator Cramer about that.
    Also, there is lots of overlap, and I do think where that 
experience will pay off, particularly in flood risk management. 
Part of the fundamental mission of the Bureau of Reclamation 
was also flood control. I worked very closely in the Central 
Valley of California, with respect to Folsom Dam on a 
coordinated flood management program, and fortification of that 
dam and its spillway, with the Corps jointly managing the 
construction project, and the river restoration, the aquatic 
ecosystem restoration program that the Corps has.
    In partnership, we did work with the Corps at the Bureau of 
Reclamation and on its own, Reclamation had also said that 
similar significant river restoration opportunity, so I think 
there is a lot of parallels and experience that will directly 
apply. As I mentioned, there are areas where I need to get up 
to speed. I will just mention one of the--hydropower, 
obviously, was very, very similar in the approach that we had 
to take to manage that resource, deal with changing effects of 
a fluctuating water supply these days, and that will be similar 
with the Corps.
    Senator Capito. Right. That is going to be critical now. On 
the flood risk management, we had a terrible flood in 2016. I 
might have mentioned this on the phone with you--that took 23 
lives and destroyed more than a thousand homes in West 
Virginia. The Corps has been very active to try to help up 
prevent such things as happen.
    I did put initial funding into the Canal River Basin 
Feasibility Study to determine what additional projects might 
be needed to improve this flood risk management, so I am going 
to ask you today, will you continue to work with me on that to 
initiate this study?
    Mr. Connor. Absolutely.
    Senator Capito. Thank you. We did talk on the phone about 
the length of time it takes for certain permitting. By the time 
you get all the different agencies and different coordinations 
between State and local and Federal, I guess my question is not 
so much the length of time, but in your experience, do you 
think that States are capable of protecting environmental 
resources such as water resources within their own borders? How 
do you see that interplay of cooperative federalism playing 
out?
    Mr. Connor. I think the easiest answer is yes, States are 
fully capable of protecting their water resources. At the same 
time, we obviously have a system where there are State laws 
that apply, there are State responsibilities under Federal law, 
and there are Federal responsibilities, so we have to improve 
that cooperative federalism. It is absolutely critical.
    I am a very strong proponent of making our permitting 
processes as efficient as possible. Given the challenges that 
we face, we need to make decisions. We need to work 
collaboratively with State and local communities, and we need 
to sync up, particularly amongst Federal agencies.
    I was a member of the Fast 41 Task Force that worked on 
permitting efficiencies. We need to keep the thoroughness of 
the reviews, but there is lost time, and the lack of 
coordination. We need to improve upon that at the Federal 
level, and then take that to the next step, work in partnership 
with the States.
    Senator Capito. I certainly agree with that. When you look 
at the different agencies that weigh in on whatever project, 
that might be Fish and Wildlife, EPA, the Corps, by the time 
you go through the permitting process of all that, you are into 
years, and years not only don't solve the problem, but they 
also cost a lot of money at the same time, and a lot of people 
walk away from projects at certain periods of time because they 
just obviously can't afford to stay in the process, so however 
we can help you with that, we'd certainly like to see the 
thoroughness there, but also the timeliness at the same time.
    My last question for right now is on the WOTUS rule. I 
mentioned it in my opening statement. I know you are not at the 
Corps yet, but the rationale for taking the WOTUS regulation, 
we obviously saw it in court all over the country, with sort of 
mixed results in terms of who is acting under it, who isn't. A 
lot of confusion for a lot of different range, whether it is 
personal golf courses, agriculture, whatever it might be.
    So, what challenges do you think the Corps will face, 
including related to obtaining permits for Corps projects if a 
new WOTUS definition is finalized that is more expansive than 
the 2015 rule?
    Mr. Connor. Well, the rule, Senator, has changed so many 
times over the years that I am not sure the challenges are 
going to be any different. We need to have a clear definition 
of waters of the U.S., one that is protective, as it should be, 
under the Clean Water Act, but one that provides clarity, and I 
think, the goal, from what I understand in embarking upon a new 
rule is to work very closely with the affected parties under 
that rule, and so my goal would be to have a clear rule that 
has enough level of input that hopefully we can get out of this 
litigation cycle and that we can move on with a rule that is 
going to be in place for a number of years. That should be the 
goal.
    That will do the most, I think, to help the Corps in its 
permitting ability and its responsibilities for making 
jurisdictional determinations if we have some clarity, and we 
have some longevity to the next rule, and that is going to 
require some collaboration, working with stakeholders, and I 
believe that is the game plan.
    Senator Capito. Thank you. We will be watching that, and I 
appreciate your input on that.
    Thank you.
    Mr. Connor. Yes.
    Senator Carper. Thanks, Senator Capito.
    Now, I want to turn to Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Welcome, Mr. Connor. It is good to have you with us, and I 
appreciate very much the dedication and the skill that you have 
shown in your service. You and I don't have any problems, but I 
have a big problem with the organization that you are going to 
come into.
    I apologize for loading this onto you, but did you ever see 
the movie ``Groundhog Day''?
    Mr. Connor. Yes, sir.
    Senator Whitehouse. So, every morning, Bill Murray wakes 
up, and it is the same damn morning, over and over and over 
again. I have been on the Army Corps on this issue for years, 
back to the Obama administration, through the Trump 
administration, and we get some happy talk from people when 
they are at the table here, and then after that, complete blow 
off. Complete disinterest.
    The two issues that concern me, one is quite a simple one, 
and that is getting answers and getting congressional mandates 
paid attention to. The Army Corps seems to believe that when we 
pass a law that instructs the Army Corps to do something, that 
is an optional, faint suggestion, maybe to be listened to, if 
it is convenient and consistent with other internal 
bureaucratic goals of the Army Corps.
    I think that has got to stop.
    Mr. Chairman, I think we have got to work out some kind of 
an operating protocol between this Committee and the Army Corps 
so that the things that we instruct as elected representatives 
the Army Corps to do actually get done. That is point A.
    Point B, as a coastal State Senator, all right? Our 
Chairman-- I will just go down my side. Our Chairman is a 
coastal State Senator. Senator Cardin is a coastal State 
Senator. I am a coastal State Senator. Senator Merkley is a 
coastal State Senator, Senator Markey is a coastal State 
Senator, Senator Padilla is a coastal State Senator. If you 
throw in the Great Lakes, you pick up Senator Stabenow, and you 
pick up Senator Duckworth.
    I have been hollering at the Army Corps for years about 
your flood and coastal damage reduction fund. Flood and coastal 
damage reduction fund. Do you know how much of the flood and 
coastal damage reduction fund actually goes to coastal?
    Mr. Connor. A very small amount, from my understanding.
    Senator Whitehouse. A very small amount. In a bad year, it 
is $120 for inland for every $1 for coastal, so less than 1 
percent in a bad year. We are operating right now under a 
proposal where it would be 45 to 1.
    Help me with the math here: 45 to 1 on a percentage basis, 
I think that translates to about 97-plus percent to inland, and 
2 percent and some change to coastal.
    In your answer to Senator Carper, you talked about your 
awareness of all these coastal issues that we are facing. We 
are looking at 9 feet of sea level rise in Rhode Island by the 
end of the century. We are looking at having to redraw the maps 
of my State because of sea level rise. We are looking at 
dramatic changes in the fisheries, dramatic changes in storm 
risk, our coasts are in dire distress, and the Army Corps 
blunders on, just completely obtuse to that risk.
    Year after year after year, treating coastal--it is not 
even a stepchild. It is like, you can root in the garbage and 
see if you can find something, but we are going to feed 
everything, all of our interest goes to inland.
    I have to tell you, Mr. Connor, this is too many Groundhog 
Days. I am sorry that this is you at this moment, but I need 
some resolution of this with your organization. I cannot go 
forward with this enormous fund that is so important to coastal 
health, the Flood and Coastal Damage Reduction Fund, getting 1 
or 2 percent of its funding for all of America's coasts.
    Our Pacific coasts, our Gulf coasts, our Mid-Atlantic 
coasts, all of Florida, our northeastern coasts, all of them 
share 1 to 2 percent of this fund, while inland soaks up 97 
percent, 98 percent. Is that not indefensible, in this day and 
age, knowing the risks that our coasts face?
    Mr. Connor. Well, Senator, I hear your concern. I have read 
your letter. It sounds like step one is the answer as to why. 
Why is the funding allocated in the way it is?
    Senator Whitehouse. I actually don't care very much about 
why. I want finito. I want it stopped. I want some balance. If 
``why'' helps us get to balance, then I would be interested in 
why, but I don't want a lot of ``why'' that gives us year after 
year after year after year of coasts getting essentially frozen 
out of the Coastal Damage Reduction Fund. I think that is a 
reasonable request.
    I am sorry that this is my, like, umpteenth Groundhog Day 
and that you have to be here on this particular groundhog 
morning, but I am done with putting up with this, and I am done 
with the non-responsiveness of the Army Corps to this flagrant 
misallocation of resources.
    Mr. Connor. Senator, I will understand the why so that I 
can get to you to the how, which is how we make those changes 
that you are requesting, and I am fully committed to the idea 
of resiliency cuts across every program of the Corps of 
Engineers, and we have got to address it on all levels and all 
threats, as you have mentioned.
    Senator Whitehouse. Thank you, and I know the Chairman 
shares my concern, because his State actually has shallower 
coasts than mine. The same sea level rise that is going to rise 
9 feet on my shores and do immense damage to my State is going 
to be even worse for Delaware, which not only is Chairman 
Carper's State, but there is also somebody you report to comes 
from that State.
    Senator Carper. And it is not Chris Kennings. Could be, 
someday.
    Senator Whitehouse, Delaware is the lowest lying State in 
America. The highest point of land in Delaware is a bridge, and 
so we have grave concerns about these issues.
    Maybe the best thing we can do it, once you have had a 
chance to settle--if confirmed--into your new job, just to have 
an oversight hearing and come back and drill down on this, 
along with some other subjects, too. Thank you.
    Senator Whitehouse. One with answers would be great, 
thanks.
    Senator Carper. There you go.
    And now, Senator Inhofe.
    Thank you.
    Senator Inhofe. Thank you very much.
    Well, first of all, let me talk a little bit to Shari and 
Gabby. Don't worry about things today. This guy received a 100 
percent vote in confirmation in the past. Not many people can 
say that. It is one that we have worked with very close 
together.
    There are three issues, actually. Two of them are going to 
be asking for commitments, which I think should come, but I 
just want to make sure that is on record. The first one has to 
do with the WOTUS rule. Senator Capito had some concerns. I 
share those concerns.
    I was very disappointed but not surprised that the EPA and 
the Army Corps have decided to repeal and replace the Trump era 
Navigation Waters Protection Rule, but this isn't bad. That is 
not the end of it. We know what happens when we change 
administrations. We know that it is going to happen again.
    The Obama era WOTUS rule, which was the No. 1 regulatory 
concern of my State, we are a farm State in Oklahoma, and their 
No. 1 concern. Essentially, what the WOTUS rule did was take 
away from the States and give to the Federal Government that 
jurisdiction.
    My people in Oklahoma, my farmers in Oklahoma, didn't think 
that was a good idea, and so that is still something that will 
be taking place. We are not sure how it is going to end up, and 
if so, it won't be a lasting end, in my opinion.
    In June, the EPA released a statement saying the EPA and 
the Army Corps determined the Trump era rule is leading to 
significant environmental degradation. Significant 
environmental degradation.
    I know you are not currently at the Corps. Are you aware of 
any specific and significant degradation, environmental 
degradation, that would be tied to the Trump rule?
    Mr. Connor. Senator, I am not aware of any specific 
circumstances right now.
    Senator Inhofe. I am not, either. If you feel one coming 
on, will you let me know?
    Second, we have a levee system in my home city of Tulsa. It 
was built in the 1940s. It has survived. We had a real close 
call 2 years ago, and I think you probably heard from me about 
that. It did get attention all over the Nation, and we are 
concerned about that.
    The WRDA, 2020, authorized this project, and this was built 
in the 1940s. It is got to be modernized to fully protect $2.2 
billion in homes and businesses along the Arkansas River, 
including two refineries. I showed you and your staffs these 
refineries.
    This was authorized by the WRDA bill in 2020. You are all 
familiar with that. It had joint jurisdiction between two 
committees. It authorized this project, and I submitted a 
congressional direct spending request to expedite design 
awards, so this project remains on the fast track.
    My first ask of you is will you commit to ensuring this 
project remains a priority for the Corps?
    Mr. Connor. Yes, Senator. You have my commitment. My 
understanding is that we have a significant amount of resources 
in the fiscal year 2022 budget, so I would like to continue the 
efforts working with you.
    Senator Inhofe. I appreciate that, and I anticipated that 
would be the case.
    The last thing I want to mention is the MKARNS. Recently, 
the Assistant Secretary of the Army Civil Works recently made 
the decision that the MKARNS 12 foot deepening project does not 
require new investment decision for the purpose of dedicating 
funds for construction. That was a major thing.
    It was a very meaningful thing to Senator Boozman, to 
myself, and to a number of others, but deepening the MKARNS to 
the 12 foot, keeping in mind the entire channel would be 9 
foot, but now changing it a very small amount would change it 
to a 12 foot channel. That will increase the load, the capacity 
by some 40 percent.
    It is a huge thing there, and deepening that is now pretty 
much accepted to everyone. I just want to make sure that you 
don't have any plans or any knowledge of anything that would 
come along and change that at this time, so I ask of you to 
commit to following this decision. This decision does not 
require a new investment decision for the purpose of dedicating 
funds for construction, so will you commit to following this 
decision?
    Mr. Connor. I am committed to following the decision. I am 
not aware of anything that would change that approach.
    Senator Inhofe. That is fine. I look forward to working 
with you.
    Mr. Connor. Thank you, Senator.
    Senator Inhofe. You bet.
    Senator Carper. Senator Stabenow is next. She will be 
followed by Senator Cramer and Senator Boozman.
    Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman. I want to follow 
up supporting comments of Senator Whitehouse's, but I do want 
to make one correction. Actually, the Great Lakes have more 
shoreline than the East Coast and West Coast combined. We have 
4,530 miles; 3,458 miles on the East and West Coasts. So, we 
refer to ourselves as the ocean without the salt.
    What you do is incredibly important and impactful. The Army 
Corps of Engineers, particularly right now, at the University 
of Michigan has put out a study saying that the Great Lakes are 
warming faster than the coasts, and I understand the incredible 
urgency on the coasts, but we are feeling it. I could go on and 
on about what is happening right now.
    But I want to talk specifically about two important Army 
Corps projects that we really need to have even more of a sense 
of urgency on. One relates to one of our biggest threats on 
invasive species, which is Asian carp, a great big fish. I 
never thought fish would keep me up at night.
    This big fish that has no functioning stomach gets to a 
hundred pounds, and in the water, kind of destroys everything 
else when it gets into the Great Lakes. It is very close to the 
Great Lakes.
    We have been operating for a number of years, working with 
Illinois and the Army Corps to stop these fish coming up the 
Mississippi River through a project that has been identified 
and is in the works, but needs to move faster, called the 
Brandon Road Lock and Dam. Senator Portman and I have led a 
bipartisan effort now for years to identify and create the 
technology that would be able to stop the fish, but allow the 
barges to continue to move up the rivers into Chicago.
    So I appreciate the expertise of the Army Corps, but we 
have to have an incredible sense of urgency about--the fish 
aren't waiting for us. They don't wait for an appropriation 
cycle, and the economic damage, as you were talking about, sort 
of how we put all this together and the economic damage of 
these fish destroying $7 billion fishing industry in the Great 
Lakes and $16 billion boating industry is very serious, so that 
is one.
    The other that is in process, but I am also concerned about 
how fast it is moving is something called the Soo Locks, which 
allows major ships to come down the St. Lawrence Seaway from 
the oceans into the Great Lakes, and we built it in World War 
II. They actually did it pretty fast during World War II. They 
were able to start to finish, do it in a couple of years.
    We are now looking at, it has been 20 years just to get to 
a point we are now funding the engineering of it in another 10, 
but we have one lock that will allow the big barges to get into 
the Great Lakes. This is all of our raw materials from 
manufacturing, for agriculture. If something happens to that 
lock, you shut down a major part of the economy, actually for 
the country.
    As the head of the Corps, can I count on you to work with 
us and to support in every way we can expediting these two 
projects that are critical for the economy of the Great Lakes?
    Mr. Connor. Senator Stabenow, you absolutely have my 
commitment on that front. With respect to the Asian carp, I 
have seen that and have been watching the situation unfold for 
many, many years now. This, to me, not only the urgency of this 
situation, the work the Corps needs to do, but the whole of 
Government approach and the USGS has done a lot of the 
scientific work in support of this effort. It is an area where 
we need to bring folks together, and with respect to the lock 
system, we have seen just in the Suez Canal most recently what 
a few days means to international commerce, so we need to take 
care of this infrastructure.
    Senator Stabenow. Thank you. You are exactly right; what 
happened in the Suez Canal can happen in our country through 
the St. Lawrence Seaway and the Soo Locks. We are holding our 
breath at this point in time that it doesn't happen.
    Let me just ask one other question in conclusion. 
Resiliency. The Great Lakes Basin, as our other coasts, very 
concerned. We are seeing high water levels, and literally 
shorelines falling in the water, houses falling in the water 
because of erosion, damage to agriculture. All kinds of serious 
issues.
    But we have, for a number of years now, again, my partisan 
initiative to have the Army Corps do a Great Lakes resiliency 
study. We have had it in the budget. We have passed the 
authorization for it a number of years ago. Never been funded.
    It is now in President Biden's budget. It is critical that 
this move as quickly as possible to assist our Great Lakes 
coast in being able to deal with what we need to do on 
infrastructure resiliency, and so I would ask for your support 
and any comments on that.
    Mr. Connor. Yes, absolutely my support. Obviously, because 
it is in the President's budget, and because given the urgency 
of the situation. There is obviously the impact of climate on 
water out west, which I am very familiar with, but I will 
become more familiar with later.
    I am not sure there are any bodies of water more impacted 
than the Great Lakes with the fluctuations that are happening 
now, and the storm surges at high levels. So that resiliency 
study, I view that consistent with your views. It is incredibly 
important to move forward expeditiously.
    Senator Stabenow. Thank you. I look forward to working with 
you.
    Thank you, Mr. Chairman.
    Senator Carper. Senator Stabenow, thanks for joining us.
    I think Senator Cramer is next, then followed by Senator 
Cardin, and then Senator Boozman.
    Senator Cramer.
    Senator Cramer. Thank you, Mr. Chairman.
    Thank you, Mr. Connor. It was good to see you yesterday, 
and now in this Committee. Today you don't have all those other 
military guys around you; you are on your own. But you are 
doing just fine.
    Shari and Gabriela, welcome, and congratulations.
    I enjoyed very much our conversation on this. It was hard 
not to nerd out a little bit on a couple of things. Sometimes I 
think there are only a couple of us that know what we are 
talking about, then I find out, no, there is just one, and it 
is not me.
    [Laughter.]
    Senator Cramer. But I enjoyed it.
    I want to start by asking a fundamental policy question, 
and really drilling down on some of those things that you just 
talked about with Senator Moore Capito. That is, of course, 
States' rights. You and I talked about it.
    It is an area, I think for a lot of us, we in many cases, 
particularly out in the middle of the country, maybe, feel a 
little bit isolated from things. Sometimes not just forgotten, 
but maybe getting too much attention from time to time. I know 
it is an issue that you dealt with, you grappled with obviously 
when you were the Commissioner for Reclamation, that was 
important.
    Two of the most fundamental statutes that govern the Corps, 
the Flood Control Act of 1944, then of course the Water Supply 
Act of 1958, which expressly reinforced States' rights and 
reinforced historic policy of deferring to State water rights.
    The Flood Control Act's declaration policy specifically 
states, ``It is hereby declared to be the policy of the 
Congress to recognize the interests and rights of the States in 
determining the development of the watersheds within their 
borders and likewise their interests and rights in water 
utilization and control.''
    Similarly, the Water Supply Act reinforces, ``It is 
declared to be the policy of the Congress to recognize the 
primary responsibilities of the States and local interests in 
developing water supplies for domestic, municipal, industrial, 
and other purposes.''
    So at the end of the Obama administration, you and I talked 
about this, the Corps proposed what became known as the Water 
Supply Rule, which both Republican and Democratic western 
States adamantly opposed. I mean, adamantly, I mean 
unanimously, opposed. And it is not very often that Oregon and 
North Dakota are on the exact same page, or the attorneys 
general of those two States and the Governors of those two 
States will sign on paper their opposition to something. So 
when it comes, though, to messing with States' water rights, we 
in the West get pretty serious and pretty united.
    Thankfully, the rule was formally withdrawn under the Trump 
administration, after this bipartisan blowback. With that in 
mind, I want to ask, do you believe that the Corps was right to 
withdraw the rule? If so, can you commit that it will not be 
proposed again, at least under your leadership?
    Mr. Connor. Well, Senator, thank you. I greatly enjoyed our 
conversation. At the risk of being even wonkier, I will say the 
acts you just referenced are the same as Section 8 of the 
Reclamation Act. So I am used to working under that regime.
    I am not familiar with the specifics of the regulation that 
was proposed. I am very sensitive, though, to the concerns that 
you just raised, given the opposition, there can't be progress 
moving forward with something that has been rejected 
previously. So you have my commitment to look into that issue 
and making sure that we work on something productive together.
    I think coming up with something that is, I understand in 
our conversation, that is close to getting support necessary so 
that water resources can be allocated from those Corps 
facilities is incredibly important. We see it in the West-wide 
drought. It is no longer a regional drought; it is a West-wide 
drought. We need to, getting back to my overall objective, 
ensuring that these facilities have the maximum multiple 
beneficial purposes. I am happy to work with you on your 
approach.
    Senator Cramer. Thank you. I appreciated your elaborating a 
little bit on cooperative federalism with Senator Moore Capito. 
It was refreshing to hear. So I won't dig into that.
    But I want to go quickly to the Dakota Access Pipeline, 
which as you know originates in North Dakota, runs 358 miles 
through North Dakota, .21 miles of the 358 miles are being 
contested, as you know. You of course were the Deputy Secretary 
at the time of the protests when it was built.
    I won't relitigate the whole thing. You know it very well. 
A lot of people know it very well. The issue at hand now of 
course while the pipeline continues to function safely, move 
about, a little over half a million barrels of oil per day, 60 
percent of the oil from the Mandan, Hidatsa, Arikara Nation 
flows on that pipeline. As you know, a judge here in DC ordered 
the EA to be replaced with an EIS. That is of course where the 
challenges come, from whether we shut the pipeline down while 
the EIS is done. It is not going to be shut down, as you know. 
It is legally sustainable now.
    My question, though, is if you are confirmed, with this EIS 
continuing, and it is expected to be done in March of next 
year, that will determine a couple of things. One, whether the 
pipeline was sited properly, mostly sited by the State of North 
Dakota, other than this .21 miles under the Missouri River.
    But do I have your commitment that you will do everything 
you can to keep politics out of the EIS process? Because I 
firmly believe the EIS will confirm the EA which was done by 
the Obama administration.
    Mr. Connor. Senator Cramer, yes. We need to move forward 
consistent with law and the very clear direction that the Corps 
has given to move forward with the EIS to do a thorough 
analysis, addressing the deficiencies that the Corps found. 
Those are legal questions, and they are technical questions 
that need to be followed up. The district office is moving 
forward on a very firm schedule for completing that, I think in 
the spring of next year. I want to oversee that, and understand 
it, given the visibility of the issue and the importance of 
tribal consultation in moving forward.
    So that is going to be the process. It is not going to be a 
political one.
    Senator Cramer. Thank you.
    By the way, you might have noticed just this week or late 
last week the first consultation with a Tribe took place with 
the EIS.
    Thank you, Mr. Chairman.
    Senator Carper. You are welcome, and thank you.
    Senator Cardin, thanks for rejoining us.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Connor, I enjoyed our conversation. Thank you for your 
willingness to take on this important responsibility, and thank 
you to your family for sharing in the public service.
    I want to start with what I think is one of the core 
functions of the Corps, and that is to keep our shipping 
channels safe and navigable. When I first started in politics, 
the location of dredged material was an extremely political and 
difficult subject. Careers were won and lost by location of 
dredged materials.
    That is no longer the case, at least for the shipping 
channel into the Baltimore Harbor. We have been able to find 
locations that have used the dredged material for beneficial 
use. We have gone over Poplar Island, which is a restored 
island, an environmental success. The communities that are 
closest to it cheered the restoration of this island. The 
wildlife there is now fantastic.
    We have our second location at Mid-Bay that is a priority 
for the Maryland congressional delegation, and we will be 
seeking construction money in this budget cycle with the 
support of the Army Corps.
    I mention that because you and I had a positive 
conversation. I just really want to get your input as to 
helping us move forward with projects such as Mid-Bay that will 
allow us to have a site for the dredged materials to keep our 
channels open and safe, but also restore the environmental 
community which helps us with the Chesapeake Bay and our 
environment.
    Mr. Connor. Senator Cardin, thank you. I very much enjoyed 
our conversation, particularly about this set of projects with 
the beneficial use of dredged material.
    I am going to express huge enthusiasm for the approach that 
you have taken for Poplar Island, and the other projects that 
are planned. I want to pause and say, given my enthusiasm, I am 
quite aware of the backlog in the Corps' budget for authorized 
projects and the need for funding. I am certainly hopeful that 
through the jobs package and the other work going on that there 
will be additional resources.
    Because getting to the point, that project is fantastic. 
That concept is fantastic. The idea that we are going to 
enhance long term commerce through the effective dredging 
program through the Port of Baltimore and other ports, and then 
use that material to build resiliency and to restore and 
address problems with the vigorous action, the surges, the 
erosion taking place because of climate change is just a win-
win-win all around.
    We need to do more of that. So you have my strong 
commitment that we will look forward to those opportunities and 
developing those win-win-wins.
    Senator Cardin. Thank you. That is exactly what the 
leadership will need.
    We talked also about Blackwater, where we used dredged 
materials to restore wetlands, which worked much more 
effectively than I think our engineers originally thought or 
expected, with success in a relatively short period of time. 
There is a cost issue, but when you weigh the environmental 
benefits, it really is the right investment and deals with 
resiliency and protection against erosion.
    Let me go on to an issue that the Chairman mentioned in his 
original questioning, and that is the economic analysis when 
doing projects. Commercial activity tied to small channels does 
not necessarily rise to the same level of funding priority 
among the Army Corps, because of the way the analysis is done.
    But these small channels, we had huge backlogs in dealing 
with this, are incredibly important to local communities in 
dealing with their way of life, in dealing with the safety of 
their activities, recreational issues, et cetera, that again 
don't rise to the same level on your analysis.
    We know there is a funding issue. We are going to do 
everything we can to give you the resources you need to make 
significant progress on the backlog. I would just like to get 
your help in working with the local communities, so that they 
have a realistic expectation as to when their projects can be 
funded and how we can best line them up for participation with 
the Army Corps.
    Mr. Connor. Yes, Senator, you have my commitment on that 
front. I think we have focused on national benefits for quite a 
long time, whether it is the Bureau of Reclamation, whether it 
is the Corps of Engineers. And we have seen inequities as a 
result of that focus.
    So now is the time, and I think once again this is an area 
that Congress has given pretty good direction in the last Water 
Resources Development Act, through authorization of pilot 
projects for economically disadvantaged communities, through 
direction on re-looking at the benefit-cost determinations and 
taking into local and regional benefits a lot more.
    So you have my commitment; that is one of the challenges 
now is to expand the protections and the work the Corps does 
for the benefit of those economically disadvantaged communities 
that have been left behind.
    Senator Cardin. I would just point out, Mr. Chairman, in 
closing, that is the livelihoods, the tourism, the recreational 
use in small communities are very much impacted by the work 
done by the Army Corps. So I just think as we always look at 
the major projects, and I am strongly in support of those, we 
shouldn't ignore the underserved, smaller communities.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you, Senator Cardin.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, very much.
    Thank you for being with us, Mr. Connor. We do appreciate 
your willingness to serve in such an important position.
    I want to talk to you about a couple of projects that are 
really important to Arkansas, in an effort to use our water 
resources as best we can. We are blessed with good water 
resources for the most part, but we have got two projects going 
on, the Grand Prairie Irrigation Project, and also the Bayou 
Meto Project.
    What they do is they take surface water and use the surface 
water versus using our aquifers. We have got two huge aquifers, 
the Alluvial and Sparta, and they cover that entire region of 
the country spreading up into Tennessee. They are the water 
supply for Memphis, areas like that, besides hundreds of 
thousands of acres for agriculture.
    What they do is divert water from the White River and the 
Arkansas River that have an excess of surface water, divert 
that and use that as the irrigation water, versus taking it 
from the aquifers. We have spent hundreds of millions of 
dollars on these projects. The Corps has been very supportive 
through the years.
    But in the last several years, things have languished. We 
are very close to completion. Really what I would like is 
really simple: Just to get a commitment from you to come out in 
the not too distant future, look at the projects, and give us 
some advice as to how we can move things forward. Visit with 
us, visit with the stakeholders.
    The Corps likes the projects. Again, it is just a matter of 
us kind of rolling up our sleeves and figuring out exactly how 
we can just put the last touches on so that we can go forward 
and get them completed.
    Mr. Connor. Senator, I would be happy to come out. This 
conjunctive use of surface groundwater and trying to find the 
right match to provide firm supplies but also protect the 
environment surrounding the area is incredibly interesting to 
me. I am happy; it sounds like a project that is well on its 
way. I would be happy to look at that.
    Senator Boozman. Great projects. And again, protecting 
water, less energy use, the whole bit. Then again, our 
groundwater is so very important, trying to get those things 
recharged.
    Mr. Connor. Yes.
    Senator Boozman. I want to second what Senator Inhofe said 
regarding the Arkansas River and the 9 to 12 foot channel. 
Arkansas and Oklahoma are joined at the hip in those projects, 
for all four of the reasons that you said, when you can 
increase a barge by 40 percent, what does that do as far as 
saving energy, efficiencies, things like that. So it is really 
important, lowering costs.
    The other thing I would like to talk to you about, and I 
know you are getting bombarded with this, but it is so 
important. I am Ranking on Agriculture. WOTUS has been a huge 
burden to my State in the past, with the agriculture community. 
For years, it created so much uncertainty, it was difficult for 
farmers to plan.
    The Farm Bureau, a grassroots organization, went through a 
Herculean effort to ensure farmers' and ranchers' voices were 
heard during the Obama administration.
    If confirmed, will you work with our cities, agriculture, 
State governments, and stakeholders, to create a rule that 
won't get held up for years in the courts, and not creating 
this uncertainty that we have seen in the past with the farm 
community and so many others?
    Mr. Connor. Senator, if confirmed, you have my commitment 
to doing that. Durability and longevity of a new rule will be a 
very high priority.
    Senator Boozman. Thank you very much. And a huge challenge.
    Mr. Connor. Yes.
    Senator Boozman. But I hope we can work together to thread 
that needle, which is so, so very important for so many 
different reasons.
    Again, I just want to--I agree with Senator Whitehouse in 
his concern for the Outer Banks, but also there is a lot of 
resources going into the inland waterways. When you count up 
all the streams and lakes and rivers and all that, it is a 
humongous amount of shoreline. So you have got all kinds of 
problems regarding erosion there.
    The way I see it is, there is lots of don't do this, don't 
do that with our streams. There is lots of management from the 
State and Federal Government. That is not a bad thing, in the 
sense of, if it is done in the right way.
    The problem is, there is no one that is really managing, 
taking care of it in the sense of providing resources that we 
need to prevent the erosion and things like that. So that is 
something else that we would like to work with you on.
    Mr. Connor. Yes, absolutely. Those are important issues.
    Senator Boozman. Good.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you, Senator Boozman. Great to see 
you.
    We have joining us by Webex Senator Duckworth. We have also 
been joined in person by Senator Padilla.
    Welcome. Glad you could be here.
    If no one else shows up, you will be the last, Senator, 
unless a Senator may come up with some questions. We might do 
that.
    Senator Duckworth, are you there?
    Senator Duckworth. Yes, Mr. Chairman. Thank you for holding 
today's hearing.
    Thank you, Mr. Connor, for your participation today.
    In an increasingly competitive global marketplace, our 
inland waterways are absolutely critical to the economic well 
being of Illinois farmers, as well as other Midwest industries. 
Waterways are so important to our competitiveness that a 
handful of years ago, industry stakeholders banded together to 
secure from Congress a tax increase. Can you imagine? They 
asked for a tax increase on their own operations in support of 
investments to keep our locks and dams in good repair. That is 
something you just don't see every day.
    The Corps of Engineers recently updated its capital 
investment strategy that prioritizes lock construction projects 
with industry stakeholders based on their importance and 
benefit to the Nation. In fact, in its 2020 report, the Corps 
and the Inland Waterways User Board rated Lock and Dam 25 and 
LaGrange Lock and Dam on the Mississippi River as part of the 
navigation and ecosystem sustainability program, known as NESP, 
as a Tier Alpha project, meaning they are among the Corps' top 
priorities for construction.
    Mr. Connor, these projects are critical and must get 
underway as soon as possible. Will you commit to working with 
me to ensure that these projects receive a new start?
    Mr. Connor. Yes, Senator, you have my commitment. I 
understand the importance and the work that has been done 
recently on inland waterways, the trust fund, and the plans 
under that. I am happy to make the commitment to continue to 
work with you in that effort.
    Senator Duckworth. Thank you.
    As to urban flooding, WRDA 2018 directed the Corps to 
furnish a report to Congress on the Corps' ability to address 
urban flooding, an issue of increasing importance given global 
climate change and sea level rise. This report was due to 
Congress not later than 1 year after enactment.
    But 2 and a half years later, I still do not have my 
report. If confirmed, will you commit to updating me on this 
effort within your first month as Assistant Secretary?
    Mr. Connor. Yes, Senator, if I am confirmed, I commit to 
updating you on that report.
    Senator Duckworth. Thank you.
    Given your previous work on western water issues, you no 
doubt can appreciate a bureaucratic pickle when you see one. 
And I love pickles, but not this kind. Unfortunately I have 
another one for you. The Chicago District's Bubbly Creek 
project on the South Branch of the Chicago River. At question 
is whether or not the Corps can secure the liability 
protections needed to advance a cleanup of this contaminated 
area.
    In the interest of time I won't delve into the specifics of 
this case. But the two Federal agencies with a role in this 
matter, the Corps of Engineers and the U.S. EPA, clearly do not 
see eye to eye on the problem, and therefore have not 
identified a workable solution.
    One agency believes this is a policy issue; the other 
agency believes this is a statutory issue. Will you commit to 
picking up the phone in the first 2 weeks following your 
confirmation and calling EPA Administrator Regan to address 
this impasse?
    Mr. Connor. Yes, Senator, you have my commitment, if I am 
confirmed, to move forward with that. Removing bureaucratic 
hurdles to make progress is something I share a strong concern 
and appreciation for.
    Senator Duckworth. Thank you. That is the aim, is to remove 
the hurdle. I don't want to have any finger pointing; I just 
want to find a solution to this.
    And very quickly, I have just a little over a minute, just 
under 2 minutes left. Mr. Connor, I have a series of rapid fire 
questions. If confirmed, will you commit to reinforcing the 
importance of the Inland Waterways User Board with Secretary 
Austin and help to expedite his review so that the board can be 
reactivated as quickly as possible?
    Mr. Connor. Yes, definitely. I will work with you on that, 
yes.
    Senator Duckworth. Thank you. And WRDA 2020 includes 
several provisions reinforcing the Corps' support for Chicago's 
shorelines. If confirmed, will you commit to updating me on 
these efforts within the first month on the job?
    Mr. Connor. Yes, I will, Senator.
    Senator Duckworth. Thank you. Section 133 of WRDA 2020 
authorizes the Corps to repair and rehabilitate Federal pump 
stations that are in disrepair. If you are confirmed, I would 
like the list of pump stations on the Upper Mississippi that 
the Corps plans to prioritize. Will you commit to providing me 
with this list within a month of your confirmation?
    Mr. Connor. Senator, yes. If confirmed, I will provide you 
with that list.
    Senator Duckworth. Thank you. And finally, will you commit 
to visiting Illinois soon and touring some of our critical 
infrastructure projects?
    Mr. Connor. I am sorry, I missed the commitment.
    Senator Duckworth. Will you commit to coming out to 
Illinois and touring some of our infrastructure projects? I 
promise to get you some sweet corn while you are out there.
    Mr. Connor. Yes, Senator, I commit to doing that.
    Senator Duckworth. Thank you. I look forward to speaking 
with you again tomorrow.
    Mr. Chairman, thank you so much. I yield back.
    Senator Carper. Will that sweet corn extend to the rest of 
us, Senator?
    Senator Duckworth. It is a deal, Mr. Chairman. You gave me 
extra time.
    [Laughter.]
    Senator Carper. OK, we have been joined by Senator Padilla 
and Senator Markey, in that order.
    Senator Padilla, you are recognized.
    Senator Padilla. Thank you, Mr. Chair.
    Mr. Connor, good morning. I want to start by saying how 
grateful I am that someone with your experience with water and 
drought issues in California specifically is being nominated 
for this position. As I mentioned to you by phone yesterday, 
your reputation precedes you. I want to point out what an 
accomplishment it is to be so widely respected in California 
water worlds across a variety of stakeholders. If that is an 
indicator for how you will do in this position, we have a high, 
high expectation.
    The Army Corps has been a great partner, not just to the 
State of California as a whole but specifically to my home town 
of Los Angeles. A devastating flood event in the 1930s prompted 
the Federal Government to assist Los Angeles County 
specifically in developing and expanding flood control 
infrastructure.
    The Sepulveda Dam, for example, along with Hanson Dam and 
Lopez Dams in the San Fernando Valley, which is literally my 
back yard, provide vital risk management of portions of the Los 
Angeles River. I look forward to continuing to work with you on 
these projects, particularly as there is this re-envisioning 
and recreation of what the Los Angeles River should be capable 
of while it continues its flood control purposes.
    I enjoyed our discussion yesterday by phone. I was also 
pleased to hear that climate resiliency is a top priority for 
you. With California facing an unprecedented drought and heat 
wave combined, literally as we speak, the increased resiliency 
of our water infrastructure will be a top priority of mine. I 
look forward to having someone who has the familiarity and 
experience with California in the Assistant Secretary's office.
    There are other issues that I wanted to raise that have 
been asked already, so I will just add one specific topic. As 
you know, and as we discussed yesterday, the Scripps Institute 
of Oceanography has been working for years, together with the 
Corps, with the State of California, with a coalition of water 
districts particularly in Southern California, as well as 
researchers to better integrate storm monitoring into how the 
Army Corps regulates water releases from dams throughout the 
State. It simply makes no sense that rigid water control 
manuals require dam operators to release water during a drought 
simply because a decades old water control manual says so.
    There is now wide support amongst the California delegation 
for the Corps to take into account modern hydrology and 
precipitation forecasts into its dam operations, especially as 
we face increased variability in rainfall. We have already 
started seeing the benefits of this, both at Lake Mendocino in 
Northern California as well as the Prado Dam in Southern 
California.
    So with the time remaining, I would ask if you can speak to 
the importance of the forecast informed reservoir operations 
program, and the need to update our water control manuals in 
the face of increasing variability in precipitation and the 
cycle of drought and flooding that are facing in California.
    Mr. Connor. Senator, thank you for that question. I very 
much enjoyed the discussion yesterday. I absolutely agree that 
looking at resiliency, looking at a changing environment, that 
improved forecasting, monitoring, operations, is absolutely 
critical. We have been operating under rules that were 
developed in a time where the environment no longer reflects 
the assumptions that were made in putting together those rules.
    This was a discussion that we had with the Corps when I was 
at the Bureau of Reclamation, Department of the Interior. It is 
obviously continuing. I think this is a great place to get the 
most bang for the buck, making the investments in those 
technologies, forecasting and monitoring, so that we can 
integrate those in operations, improve water supply or 
protection of communities, if we can better forecast those 
extreme events, and make progress while we are looking through 
the whole array of solutions that have to be in place. Some of 
those are infrastructure; a lot of them are natural 
infrastructure. But we can't forget technology and our ability 
to manage water using information.
    Senator Padilla. Thank you very much.
    Thank you, Mr. Chair.
    [The prepared statement of Senator Padilla follows:]

                    Statement of Hon. Alex Padilla, 
               U.S. Senator from the State of California

    I want to start by saying how grateful I am that someone 
with your experience with water and drought issues in 
California is being nominated for this position. Your 
reputation precedes you, and I want to point out what an 
accomplishment it is to be so widely respected in the 
California water world.
    The Army Corps has been a great partner to my hometown of 
Los Angeles since damaging flood events in the 1930s prompted 
the Federal Government to assist L.A. County in developing and 
expanding flood control infrastructure.
    The Sepulveda Dam, together with the Hansen and Lopez Dams, 
provide vital flood risk management of portions of the San 
Fernando Valley along the river, and I look forward to continue 
working with you on these projects.
    I also enjoyed our discussion yesterday, and I was pleased 
to hear that climate resiliency will be a top priority for you. 
With California facing an unprecedented drought and heatwave, 
increasing the resiliency of our water infrastructure is a top 
priority of mine.
    I look forward to California having a strong ally in the 
Assistant Secretary's office.

                           atmospheric rivers

    As you know, Scripps Institute of Oceanography has been 
working for years with the Corps, the State of California, and 
with a coalition of water districts and researchers to better 
integrate storm monitoring into how the Army Corps regulates 
water releases from dams.
    It simply makes no sense that rigid water control manuals 
requires dam operators to release water during a drought simply 
because a decades old water control manual says so.
    There is wide support among the California delegation for 
the Corps to take into account modern hydrology and 
precipitation forecasts into its dam operations, especially as 
we face increased variability in rainfall.
    We've already started seeing the benefits at Lake Mendocino 
in Northern California and Prado Dam in Southern California.
    * Can you speak to the importance of the Forecast Informed 
Reservoir Operations program and the need to update Water 
Control Manuals in the face of increasing variability in 
precipitation and the cycle of drought and flooding that we 
face in California?

    Senator Carper. Senator Padilla, thanks so much for joining 
us.
    Senator Markey, good to see you.
    Senator Markey. Thanks, Mr. Chairman.
    Thank you, Mr. Connor, for your willingness to serve.
    So we have a big issue up in Massachusetts. On Cape Cod, 
the Bourne and Sagamore Bridges were built in the 1930s as part 
of a Franklin Delano Roosevelt Works Progress Administration 
plan. They have aged out. We need to replace these two bridges. 
It is very important, because 250,000 people who live on Cape 
Cod are dependent upon those bridges. During the summer, that 
number can double, triple, or quadruple in the number of people 
who use those bridges.
    The Army Corps of Engineers operates these bridges. They 
are the ones who are responsible for them. So we need to 
replace them, and they are absolutely critical to the long term 
well being of our Commonwealth.
    The Army Corps specifically signed a memorandum of 
understanding with the Massachusetts Department of 
Transportation back in July 2020 formalizing a Federal-State 
partnership to deliver two new bridges for the people of Cape 
Cod. Implementing this agreement will fall now to the Biden 
administration and to the Army Corps. Every year which we delay 
is going to lead to more traffic, more costs, more danger when 
inevitable storms strike the region.
    Mr. Connor, are you willing to work with us, the Army 
Corps, in order to make sure that we are able to replace the 
Bourne and the Sagamore, and to create for the 21st century a 
guaranteed capacity for people to get access on and off of Cape 
Cod?
    Mr. Connor. Senator Markey, I am not previously familiar 
with this project, but given its importance, as you have 
outlined, I am happy to work with you in moving forward and 
seeing what we can do to ensure that that project is taken care 
of.
    Senator Markey. Thank you. And again, it is something that 
requires the Chairman and the other Members of Congress here to 
provide additional Federal funding, and we are working hard on 
that in order to make sure that for that project and for so 
many other projects in the country that we have the capacity to 
work on it.
    Just following up on what Senator Carper and Senator 
Whitehouse talked to you about, coastal protection, Delaware, 
Rhode Island, Massachusetts, but all of us are seeing rising 
tides; we are seeing massive erosion; we are seeing 
intensification of the storms which are impacting us. In New 
England, we have the second fastest warming body of water on 
the planet. After the Arctic, we are second, in the Gulf of 
Maine. And that is Maine, New Hampshire, Massachusetts, Rhode 
Island. So that warming is causing tremendous danger being 
created.
    We want to work with you in order to make sure that we deal 
with these issues. For example, under a business as usual 
scenario over the course of this century, for the city of 
Boston, the sea rise could go as high as 7 additional feet if 
we don't take action.
    So from our perspective, we need help, and in light of 
those concerns, could you explain how, again, following up on 
Senator Carper and Senator Whitehouse, how you are going to 
enhance comprehensively and expand the capacity of the Army 
Corps to combat these threats to coastal communities in the 
United States?
    Mr. Connor. Thank you, Senator. Overall, my approach in 
thinking through how, if confirmed, I would want to approach 
the huge number of needs versus the resources, one, I discussed 
this earlier a little bit, given that backlog of need out there 
I am certainly hopeful and appreciative of the fact that 
Congress, in working with the President, is looking at the 
infrastructure investments that can be made.
    But assessing the risks out there, the vulnerabilities that 
exist are going to be a high priority in assessing how to 
prioritize the resources we do have. So understanding the risks 
associated with the body of water that you talked about, the 
energy involved in a warming body of water and the storm surges 
that that is going to cause, that is going to be a very high 
priority. Because I think that is fundamental to being 
effective in allocating resources and addressing resiliency, is 
to best understand the risks involved.
    So I am very happy to delve more deeply into the issues 
that you are talking about, as others, in assessing the coastal 
risks versus inland risks, et cetera, and trying to make good 
judgments about where to invest resources.
    Senator Markey. One of the concerns, obviously, that we 
have, and I have been working with the Army Corps on developing 
a comprehensive study for addressing Boston's climate 
resiliency, we are right in the crosshairs of this climate 
crisis. It is coming right for us. Again, we are going to need 
to work with the Army Corps to put in place the protections 
which we need.
    The same thing is true, by the way, for Newburyport. 
Newburyport, Plum Island, it is just so vulnerable right now. 
The numbers are scary. Twenty percent of Newburyport falls 
within FEMA's 100 year flood zone with the risk exacerbated 
even further for the oceanfront residents.
    So that is why I have been pushing the Army Corps to 
urgently address worsening shoreline erosion in that vulnerable 
community as well. And I want to work with you on the 
Newburyport issue. Because again, it is not their fault that 
the ocean is warming right off their coastline. Any one of 
these storms could have absolutely catastrophic consequences. 
If Hurricane Sandy had just moved a few more degrees, we would 
still be digging out Martha's Vineyard and Nantucket and the 
city of Boston and Newburyport. We would still be recovering 
from it. It would be catastrophic.
    So we want to make sure that we undertake additionally 
critical work to shore up the sea walls that can prevent these 
surging tides. This Committee also has a concomitant 
responsibility to ensure that we are funding the solutions to 
this climate crisis. Under the leadership of the Chairman, we 
are going to be doing that this year.
    But we are going to need to partner with you at the Army 
Corps. We are totally dependent upon you in the State of 
Massachusetts.
    Mr. Connor. Absolutely, Senator. I look forward to working 
with you on these issues if I am confirmed.
    Senator Markey. Thank you so much. We are looking forward 
to working with you as well.
    Mr. Chairman, thank you so much for giving me that 
opportunity.
    Senator Carper. I should thank you, and I do.
    All right, I am not sure if we will have any of our other 
colleagues to join us. Senator Capito has gone off to the 
Appropriations Committee, I believe, and Senator Sullivan is 
trying to get here. We will see if he makes it.
    In the meantime, I have about 14 more questions.
    [Laughter.]
    Senator Carper. Not really. I have several more, though.
    Are you doing all right?
    Mr. Connor. I am doing all right, Senator. My time is your 
time, Senator.
    Senator Carper. I want to give great credit to your wife 
and daughter for sitting here and supporting you through this 
grueling examination. This is friendly, as you can tell, a 
friendly hearing. We have some that aren't quite as friendly. 
But this is an encouraging thing.
    A couple more questions, if I may, one of them dealing with 
the relationship with OMB. Very often on this Committee we hear 
from multiple sources, as you might imagine, about the 
sometimes tense relationship between the Corps and the Office 
of Management and Budget.
    There is a lack of transparency about how the Assistant 
Secretary of the Army for Civil Works and Corps recommendations 
for a proposed budget are considered by OMB. Many times 
Senators, you heard a little of this today, many times Senators 
feel that these recommendations are ignored or even overridden 
by OMB. This is what happens time and time again, inequity 
between coastal and inland funding.
    My question is this: How might you as Assistant Secretary 
of the Army for Civil Works improve the relationship with OMB 
and bring a bit more transparency to the budget process?
    Mr. Connor. Thank you, Senator. I think it is a huge, an 
important question, and it is a huge issue. I say that because 
it is one I am very experienced in during my tenure at both 
running the Bureau of Reclamation and the Department of 
Interior, as its CEO.
    Working with OMB and trying to have my priorities be its 
priorities involved a lot of patient dialogue. It wasn't always 
successful, but I will say that through that process of 
engagement and not challenging, but wanting to go back and have 
discussions when decisions were made that were not reflecting 
the priorities that I thought should be in place, I found was 
very productive with folks at OMB, having the staff that worked 
for me engaged with staff at OMB and then taking it up and 
having the discussions at the leadership level when things were 
teed up.
    It is a process that sometimes you can make immediate 
progress on certain issues. I am happy to say that some of the 
things that we worked on in 2014, 2015, 2016, didn't see the 
light of day until this most recent budget. But clearly they 
got internalized at some point, some of the Indian Water Rights 
initiatives at Interior, et cetera, so we could make progress 
in the short term through engagement, and we can maintain 
progress and hopefully build on that in the future. That is 
what we need to do.
    If I am confirmed, you have my commitment to engage in that 
process. I think it is critical for the Army Corps of 
Engineers. It is critical for Members of Congress to understand 
how decisions are being made. I think at the end of the day it 
leads to better decisions with the allocation of budget 
resources.
    Senator Carper. I think you are right.
    Second question. Stakeholders and sponsor collaboration 
with the Army Corps of Engineers is a critical component in 
solving today's water resources challenges. It helps to limit 
the cost of missed opportunities; it promotes better planning; 
it provides better transparency and results and more fiscally 
and environmentally sound projects.
    The Corps unfortunately has been limited in its outreach 
methods to promote stakeholder development in a number of 
disadvantaged communities. My question is what more could or 
should the Corps be doing in terms of collaboration with non-
Federal stakeholders, including those in disadvantaged 
communities?
    Mr. Connor. Senator, it is a huge challenge for the Corps, 
not because I think there is not a commitment there, but just 
given the over-subscribed nature of the projects and the works 
that are already in place. And quite frankly, I have had these 
discussions with General Spellman at a very high level at this 
point in time about the challenges to the work force itself in 
doing the work that it is expected to do.
    So notwithstanding all of those demands, I see, and I think 
the Corps in my discussions so far certainly sees, the 
direction that has been given by Congress to do the outreach to 
disadvantaged communities to look at cost-benefit differently, 
to carry out pilot projects that will allow them to engage in 
those projects and bring the talents and the expertise and the 
protections and the value of the projects that the Corps can 
work on with those communities.
    They see it, I see it, and it will be a high priority in 
this next Administration. My sense is that there will be 
resources allocated specifically in this area and with that, 
there is no excuse for not moving forward and trying to engage 
with these communities.
    Senator Carper. All right, thank you.
    We talked a bit in a conversation earlier this week about 
natural infrastructure, using natural infrastructure, where can 
nature based infrastructure as opposed to manmade 
infrastructure as an integral part of the Corps' project 
delivery process. Congress has been very clear about moving 
these concepts forward. But the incorporation of these features 
into water resources projects is still the exception rather 
than the rule.
    How might you as Assistant Secretary of the Army for Civil 
Works ensure that Corps planning and engineering standards are 
updated to incorporate these principles into the normal project 
delivery process?
    Mr. Connor. Thank you, Senator. I think what I can do from 
my position, if I am confirmed, is to prioritize the need to 
integrate nature based solutions, natural infrastructure, 
wherever we can and wherever it makes sense. There is a 
direction that needs to be in place to always look at that 
option. Two, to ensure that we understand all the options 
available. Once again, this is a discussion that I have had in 
preparation for these hearings, is the need for more research 
and development in this area.
    We know in some cases where we can move forward. The 
beneficial use of dredged material I think is one of those 
opportunities. The integration and coastal protections of 
natural materials as well as traditional concrete and brick and 
mortar type infrastructure I think has been used.
    But clearly, from a cost efficiency standpoint and an 
opportunity standpoint, we need to do more of that. In looking 
at flood risk management and looking at trying to slow down 
water in various ways, how do we build more backwaters, how do 
we build more access to floodplains, not only to get the 
benefits of the protections but to infiltrate groundwater, 
depleted groundwater aquifers that are necessary for water 
supply, that are necessary for their cooling effects later on 
in the year, in the summer when waterflows dip.
    There are just so many opportunities to integrate these 
natural solutions and get multiple benefits that it will be a 
high priority to ensure we are always looking at it, and a high 
priority to better understand the research and development and 
pilot projects, how we can move forward with that type of 
integration.
    Senator Carper. Thank you for your response. That is an 
important issue to us, not only to the First State, but to a 
lot of other States as well, as you know.
    Probably my last question of this morning will deal with 
the Corps budget. This is a subject others have raised already, 
and you have commented on it, too. Once I have asked that 
question and you have answered it, if no one else joins us, 
Senator Sullivan is trying to; we will see if he can make it. 
But if he doesn't, then I will ask you if there is anything you 
want to say.
    There he is, good, all right.
    Colonel, welcome aboard. If you are ready, I can yield to 
you now.
    We are joined by Senator Sullivan, from the great State of 
Alaska.
    Senator Sullivan. I am ready; thank you.
    Mr. Connor, thank you. Thanks for waiting. I am sorry about 
my late arrival here. We had an opportunity to ask some 
questions yesterday in front of the Armed Services Committee. 
So you get two rounds.
    Senator Carper. That is what we call a double shot, with 
apologies to Junior Walker and the All Stars.
    Senator Sullivan. Again, I appreciated our discussion the 
other day.
    Let me go into this one topic that I think is actually a 
very important one. The budget that the President put forward 
for the Corps of Engineers effectively prohibits funding for 
Army Corps projects that ``facilitate the transportation of 
fossil fuel products.'' Now, you and I kind of did a quick 
little back of the envelope estimate. That is probably at least 
50 percent of all Corps of Engineers projects.
    Let me give one example. I know that in the Boston area, 
they import a lot of LNG from Russia. Very bad policy, by the 
way, the State of Massachusetts. They would rather import gas 
from Russia, our adversary, than Americans who produce gas in 
Pennsylvania.
    As far as I can tell, this reading wouldn't allow you to 
dredge Boston Harbor or do any work there. Do you agree with 
this? And what do you think the implications are of a policy 
that prohibits the Corps from any, any project that transports 
fossil fuels?
    Mr. Connor. Senator Sullivan, I appreciated the discussion, 
the heads up on this particular matter when we talked the other 
night. I don't believe that is a policy. I did go and find the 
language that I think you are referring to. I am not 100 
percent sure.
    My understanding was that in the budget there was language 
talking about considerations made in the development of the 
budget of which one of those was to limit subsidies that the 
Corps would provide for oil and gas, facilitating oil and gas 
operations. So first of all, I understand it was a discussion 
about the consideration. It was essentially directed toward 
subsidies. Moreover, it is a policy document in which there was 
this language trying to explain how the overall budget was 
developed.
    So from that standpoint, I don't believe that is the 
policy, that it has the breadth of issues that we, you and I, 
were discussing the other night.
    Second of all, I can just assure you that in making 
decisions about how to allocate resources, I am going to be 
focused on the applicable statutes, laws that apply, the 
appropriations provided by Congress, and the direction on how 
to use those appropriations. That is going to, as I see it, and 
I did go through the budget after we talked, it is directing 
that a lot of these activities related to commerce and ports 
and waterways and transportation needs are going to continue in 
full force.
    Senator Sullivan. So let me just read some of the language. 
It says, ``No funding for work that directly subsidizes fossil 
fuels including work that lowers the cost of production, lowers 
the cost of consumption, or raises revenues retained by 
producers of fossil fuels.'' So do you agree with that?
    Mr. Connor. That is a little bit different language than I 
have seen.
    Senator Sullivan. I am reading the budget.
    Mr. Connor. Right. I understand. I need to go back and look 
at that specifically.
    Senator Sullivan. Look, I am a huge believer in what the 
Corps does. Their mission is to build things. A lot of what 
they do is transportation. A lot of what they do is pipelines. 
A lot of what they do--we still need energy in America. There 
is a far left element of the Biden administration that thinks 
we can get rid of fossil fuels. We can't. OK? We can't. You 
will crush the economy.
    By the way, there is a lot of discussion of union jobs in 
here. You will kill millions of union jobs. The President is 
already pretty good at that.
    So I just need your commitment that this kind of policy 
makes no sense, and it is a huge, huge component of the work 
that the Corps of Engineers does. Right now, the President's 
budget is telling and directing you, you can't do a lot of the 
work that you traditionally do.
    I just think it is a really big issue, Mr. Chairman, that 
we need to look at in detail. A number of us are going to be 
writing the head of OMB, in the next day or two, to ask direct 
questions about this topic.
    But can I get your commitment to work with me and others on 
this Committee who care about the delivery of energy and the 
men and women who produce it, many of whom are union members, 
and not discriminate, particularly with regard to the Corps' 
mission on projects that help us deliver energy to Americans, 
particularly when gasoline prices right now are skyrocketing, 
hurting working families?
    This is all going to contribute to that. I would like your 
commitment to work with me and this Committee on this topic. It 
is a really, really important topic. I don't think it is a 
partisan topic. I don't think EPW members want to have a policy 
that says, you cannot help with the transportation or 
consumption of energy. We need energy in America. I know some 
of the far left Green New Dealers don't think we do, but we do.
    Can I get your commitment on that?
    Mr. Connor. You have my commitment to work with you, this 
Committee as a whole, to carry out the Corps' mission, to 
continue to do those projects and maintain waterways and to 
continue to rehabilitate----
    Senator Sullivan. How about pipelines?
    Mr. Connor. And pipelines, we will move forward with our 
permitting responsibilities consistent with the Clean Water 
Act, be transparent and do the full analysis. I am happy to 
continue to work with you in those areas and to continue that 
work in the way it is directed under the existing laws.
    Senator Sullivan. Mr. Chairman, may I ask one final 
question?
    Senator Carper. Yes. I would ask you to be brief. I think 
we are about to start voting. Then I want to ask one more 
question myself.
    Senator Sullivan. We had a really good discussion the other 
day, and again, I appreciated all the time that you had in my 
office, as it relates to permitting. Again, I think that this 
is pretty much a bipartisan issue. We had some good language on 
permitting reform here in this Committee when we marked up the 
Highway Bill. The Corps has a can do, mission oriented focus on 
building things.
    But when it takes 9 years to permit a bridge, or 9 to 19 
years to permit and build a highway in America, those are 
averages, it really, really undermines our ability to put 
people to work and build the infrastructure you need, we need 
as a country.
    Can I get your commitment to work with this Committee--you 
and I had a good discussion about this--on permitting reform, 
not to cut corners, but to get to projects in an efficient, 
timely manner?
    As you know, and Mr. Chairman, we have talked about it in 
this Committee, if we have efficient, timely permitting, we are 
also going to be able to get millions, billions of dollars off 
the sidelines from the private sector that will invest in these 
kinds of infrastructure projects. But they won't invest if it 
is a 10 year permitting timeline.
    Can I get your commitment to work with us, this Committee 
and me, on those important issues?
    Mr. Connor. Senator, yes, absolutely. This will be a high 
priority to do our part, if I am confirmed, to make our 
permitting system more efficient. That means collaborating, 
coordinating with other agencies that are involved, and getting 
even to another place that you and I talked about, mitigation 
banking and other opportunities. When you bring those in, and 
you create more opportunities to deal with the impacts of 
projects, I think that also helps to address, creates at least 
the opportunity to do permitting more efficiently and move it 
forward.
    So I am a big fan of the Federal Government working with 
others to be more efficient in this process. That is a 
longwinded answer to your question; yes, you have my 
commitment.
    Senator Sullivan. Great. Thank you.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you for joining us. You are worth 
waiting for.
    Mr. Connor, one last question if I could. Have you ever 
heard of a comic strip, Pogo?
    Mr. Connor. Yes, sir, I have.
    Senator Carper. I think one of the strips was, Pogo would 
say, we have met the enemy, and it is us. We have met the 
enemy, and it is us. When I hear my colleagues and I ask 
questions about the level of funding for the Army Corps to do 
its many, many different works across the country, I am 
reminded of Pogo.
    But as you know, the Congress typically funds the Army 
Corps of Engineers at levels actually above the President's 
request. I think in the fiscal year 2021 request, the last 
Administration, their request was something just under $6 
billion. A lot of money. Congress ended up providing--it was 
not nearly enough. And Congress ended up providing close to $8 
billion for the current fiscal year.
    And while those numbers appear to be large, they are large, 
the Corps has not made a significant dent in the project 
backlog. I estimate it to be nearly $109 billion. Some 
observers have said the Corps needs an even larger investment 
of up to $140 billion, when the full scope of project needs is 
considered.
    Will you, if confirmed, will you advocate in this work with 
us, work with this Committee to see if we can't convince this 
new Administration to help us increase the Corps' budget to 
support Corps missions and local needs? As you know, this 
budget process, President's request, and the Congress debates 
and appropriates moneys. It would be helpful to have an 
Administration which actually is aware of this need and to make 
sure that when they prepare for their budgets in the future it 
is reflective of those needs.
    You have made a lot of commitments today, but I am asking 
if you would commit to advocate and work with us to increase 
the Army Corps' budget to support the needs, the many needs and 
missions the Corps' expected to meet. Would you?
    Mr. Connor. Mr. Chairman, if I am confirmed, you have my 
full commitment to elevate these issues, discuss them 
rigorously within the Administration and to work with you and 
the Committee members in that effort. I am happy to do that.
    Senator Carper. All right. Thank you.
    I indicated a bit earlier that I would give you a little 
bit of time here at the end. Anything else you would like to 
say, just in summarizing?
    Mr. Connor. No, sir, I think I have said enough today.
    Senator Carper. My thanks to you for your willingness.
    Let me see if I have anything else.
    Thank you so much for joining us today. Thank you for your 
willingness to serve our Nation. And my thanks again to your 
family, to your wife and to your daughter, because you serve, 
too. It is not just your husband, not just your dad.
    We are proud on this Committee of our record of 
bipartisanship. I like to say that we are work horses here on 
this Committee, not show horses. I am delighted that the record 
has been demonstrated by our consideration of the President's 
nominees for this Congress, and today's hearing continues that 
effort. We look forward to hearing more from you in the days 
and weeks ahead.
    Senator Capito has had to leave. She sends her best, and 
joins me in thanking you for coming today and for all your 
responses.
    Before we adjourn, a little bit of housekeeping. I want to 
ask unanimous consent to submit for the record a variety of 
materials that include letters from stakeholders, and other 
materials that relate to today's nomination hearing.
    Senators will be allowed to submit questions for the record 
through close of business on Friday, July 16th; that is this 
Friday. We will compile those questions and send them to our 
witness, and ask that you reply to them by next Wednesday, July 
21st.
    With that, this hearing is mercifully adjourned. Thank you.
    [Whereupon, at 11:39 a.m., the hearing was adjourned.]
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
                                 <all>
</pre></body></html>
